                              UNITED STATES DEPARTMENT OF EDUCATION
                                     OFFICE OF INSPECTOR GENERAL
                                                                                                                       Audit Services
                                                                                                                    Region IV, Atlanta



                                                             August 8, 2007
                                                                                                             Control Number
                                                                                                             ED-OIG/A04G0012

Dr. Hank M. Bounds
State Superintendent of Education
Mississippi Department of Education
P.O. Box 771
Jackson, MS 39205

Dear Dr. Bounds:

This Final Audit Report, entitled Audit of Mississippi Department of Education’s (MDE)
Emergency Impact Aid (EIA) Program Controls and Compliance, presents the results of our audit.
Our objectives were to determine if (1) MDE and six selected Local Educational Agencies (LEA)
established adequate systems of internal control to provide accurate displaced student count data;
(2) MDE established an adequate system of internal control to make accurate allocations of EIA
funds; and (3) LEAs used EIA funds only for expenditures within the cost categories allowed by the
terms of the grant and applicable laws and regulations. In addition, we evaluated MDE’s systems of
control over the administration of the Assistance for Homeless Youth Program. Our audit covered
the 2005-2006 school year for both EIA and Homeless Youth programs.



                                                       BACKGROUND 



In 2005, Hurricanes Katrina and Rita had a devastating and unprecedented impact on students and
teachers in Louisiana, Mississippi, Alabama, and Texas. Schools on the Gulf Coast suffered
tremendous damage, requiring the temporary or permanent closure of schools, depending on the
extent of damage sustained. The hurricanes’ destruction forced students to enroll in the surviving
schools outside of their home area. Hurricane Katrina alone displaced about 372,000 students, with
over 10,000 students displaced to Mississippi. As a result of the devastation, the Federal
Emergency Management Agency (FEMA) declared the affected States disaster areas, making them
eligible for Federal aid; and Congress appropriated emergency grant funds for the 2005-2006 school
year.

The Hurricane Education Recovery Act (HERA), passed as part of Public Law 109-148 in
December 2005, authorized three new grant programs to assist school districts and schools in
meeting the educational needs of students displaced by Hurricanes Katrina and Rita, and to help
  The Department of Education's mission is to promote student achievement and preparation for global competitiveness by fostering educational
                                                    excellence and ensuring equal access.
Final Report
ED-OIG/A04G0012                                                                       Page 2 of 15

schools closed as a result of the hurricanes to re-open as quickly and effectively as possible. The
programs included in the HERA are (1) the Immediate Aid to Restart School Operations (Restart)
program, funded at $750 million; (2) the Assistance for Homeless Youth program, funded at $5
million; and (3) the Temporary Emergency Impact Aid for Displaced Students (EIA) program,
funded at $645 million. In June 2006, Congress appropriated an additional $235 million for the
EIA program in the Emergency Supplemental Appropriations Act for Defense, the Global War on
Terror, and Hurricane Recovery 2006.

The EIA program provided funding to State Educational Agencies (SEA) to cover the cost of
educating students who were displaced by Hurricanes Katrina and Rita during the 2005-2006 school
year. To receive aid, eligible SEAs were required to apply for the funds; the application included
providing quarterly enrollment counts of displaced students, as well as other application information
required by the Department of Education (Department). According to the EIA funding provisions,
each SEA could receive up to $1,875 per quarter for displaced students with disabilities (SWD) and
up to $1,500 per quarter for displaced Non-SWD. The full amounts were funded and the funding
was provided to the SEA quarterly during the 2005-2006 school year, based on the number of
displaced students counted in the State for each of the four quarters.

MDE directed the LEAs, non-public, and Bureau of Indian Education (BIE) funded schools to
provide quarterly head counts of displaced students with counts effective as of October 11, 2005;
December 1, 2005; February 1, 2006; and April 3, 2006. MDE used these counts to support its
quarterly submissions to the Department. MDE received over $100 million of EIA funding for all
four quarters combined, and distributed those funds to each LEA based on its quarterly counts of
displaced students submitted for each category – SWD and Non-SWD.

The Assistance for Homeless Youth program, which was also authorized under the HERA, is
closely related to the EIA program. The program provided funding to SEAs to assist in meeting the
needs of students displaced by Hurricanes Katrina and Rita. The Department used the same
information that the SEA provided on its EIA applications to award Assistance for Homeless Youth
program funding. The SEAs sub-granted the Homeless Youth funds to the LEAs that applied for
the program. MDE received over $680,000 in funding for the Homeless Youth program and
allocated those funds to 14 LEAs. MDE allocated the program funds to those LEAs using a
methodology that took into account the quality of the LEA’s program plan, including the budget
and narrative; the number of homeless students they reported; and the amount requested. LEAs
were allowed to use the Homeless Youth program funds on activities allowable under the
McKinney-Vento Homeless Assistance Act.



                                       AUDIT RESULTS 



We found that all six of the LEAs reviewed in our sample reported inaccurate displaced student
counts to MDE in support of the State’s submission to the Department. As a result, MDE may have
received more than $3.1 million in excess of its entitlement for EIA funds. MDE and the LEAs had
weak internal controls over displaced student counts, and MDE had no mechanism in place to test
Final Report
ED-OIG/A04G0012                                                                      Page 3 of 15

the reliability of the information received from LEAs. Because of the Department’s prescribed time
constraints for issuing quarterly payments to LEAs, MDE initially focused on distributing EIA
funds to the LEAs in a timely manner. However, after the final funds had been allocated to the
LEAs, MDE focused on monitoring; and, in September 2006, MDE implemented a monitoring plan,
which we found to be adequate. The monitoring plan consists of contracts with five CPA firms to
conduct on-site monitoring at 108 selected LEAs out of 134 LEAs awarded displaced student funds.
Specifically, the CPA firms were tasked to ensure the accuracy of displaced student counts and
ensure expenditures were allowable. As of the beginning of November 2006, MDE had received
only a few LEA review reports from one CPA firm. According to an MDE official, the CPA firm
found erroneous displaced student counts at the LEAs; this is consistent with our audit findings.

Although we initially found errors on MDE’s funding allocation spreadsheets for quarters one
through three, MDE revised its counts and allocations for all four quarters correcting the errors we
identified. In our review of EIA expenditures, we found that the six LEAs in our sample made
expenditures within the cost categories allowed by the terms of the grant and applicable laws and
regulations, with the majority of the EIA funds spent on payroll. In our review of the Assistance for
Homeless Youth program, we found that MDE had adequate policies, procedures and controls over
the administration of the program. The funding allocation calculations were accurate and the
allocation methodology was appropriate. However, at the time of our review, MDE had not
distributed any Homeless Youth funds to the LEAs.

In its comments to the draft report, MDE generally concurred with our finding and related
recommendations, but did not agree with our use of projections in recommending the return of
funds related to the six LEAs’ misidentification of displaced students. The comments are
summarized after the finding. The full text of MDE’s comments on the draft report is included as
an attachment to the report.

FINDING – MDE Reported Inaccurate or Unsupportable Displaced Student Counts

In our review of the supporting documentation for the displaced students at six selected LEAs, we
found that (1) all six LEAs incorrectly identified students as displaced, or did not maintain
documentation adequate enough to prove the students’ displaced and/or SWD status; (2) five LEAs
counted displaced students twice in the same quarter; and (3) the number of displaced students
reported to MDE was not completely supported for all six LEAs. As a result, all six LEAs reported
inaccurate information to MDE in support of the State’s report to the Department. Based on the
inaccurate reporting, MDE may have received over $3.1 million in excess of what the EIA grant
allowed for the educational needs of the students displaced by the hurricanes. The total projected
questionable dollars due to misidentification of displaced students at the six LEAs reviewed is
$2,723,270. The total actual questionable dollars due to duplicate counts of displaced students is
$124,500; and due to unsupportable final displaced student counts is $344,625.

According to the Department’s guidance in Volume I of Frequently Asked Questions - EIA for
Displaced Students, “displaced students” are students who
Final Report
ED-OIG/A04G0012                                                                        Page 4 of 15

   a.	 on August 22, 2005, resided in, and were enrolled or were eligible to be enrolled 

       in a school in an area for which the Federal Government later declared a major 

       disaster related to Hurricane Katrina or Hurricane Rita; and 

   b.	 as a result of their displacement by the storm, are enrolled in different schools on 

       a date on which an enrollment count is taken for the purpose of the EIA program. 

The definition also includes students who, on the date a count is taken, are enrolled in a school in
their original LEA but, because of the impact of one of the hurricanes, are not in their original
school.

For recordkeeping requirements, Volumes I and II of Frequently Asked Questions - EIA for
Displaced Students, refer to 34 CFR § 80.42. The referenced regulation requires grantees to
maintain, for three years, all financial and programmatic records, supporting documents, statistical
records, and other records of grantees or sub-grantees, which are required to be maintained by the
terms of program regulations, grant agreements, or otherwise reasonably considered to be pertinent.

From the list of displaced students provided by each of the six selected LEAs – Jackson County,
Moss Point, Pascagoula, Harrison, Jackson Public, and Biloxi Public – we pulled two statistical
random samples of displaced students for each of the first three quarters of the 2005-2006 school
year. The samples included both public and non-public school students with separate samples for
SWD and Non-SWD for each quarter. We reviewed documentation provided by the LEAs in
support of the students’ displaced and/or SWD status for each student included in our sample.
Documentation reviewed included registration forms; permanent records; Individualized Education
Plans (IEP); and enrollment, withdrawal, and grade level information from the Mississippi Student
Information System (MSIS) or the LEAs’ local student information system. From our student
samples, we found students misidentified as displaced and/or SWD. Separate from our sample
review, we found students counted twice in the same quarter; and that the displaced student counts
for all six LEAs were less than the counts reported to MDE.

Misidentified Displaced Students

Our review of supporting documentation at six LEAs for the displaced student samples identified
students incorrectly classified and counted as displaced and/or SWD. Specifically, we found

•	 Students reported as displaced, but the LEA’s documentation showed that they did not meet the
   Department’s definition of displaced.

•	 Students reported as displaced, but the LEA’s documentation was inadequate to determine
   whether the student met the definition.

•	 Displaced students reported as SWD, but the LEA had no documentation or inadequate
   documentation to support the SWD status.

Related to students not meeting the Department’s criteria established in its definition of a displaced
student, we found that some of the students did not qualify because (1) students’ enrollment dates
were outside of required count dates; (2) students transferred from places not considered a
Final Report
ED-OIG/A04G0012                                                                                      Page 5 of 15

hurricane disaster area; (3) students were displaced from their homes but were attending their
original school on required count dates (their school was still intact); and/or (4) non-public students’
files did not include the required parent certification form. Tables 1 through 3 present the results of
the displaced student tests.

                                          Table 1: Quarter 1 Results
                                Non-SWD                                   SWD
                                      Errors/                          Errors/        (Of Total Errors)
                                      Sample                           Sample        Errors due to
         LEAs             Population1 Size             Population      Size             SWD
                                                                                    Documentation
         Jackson          1154             0/50        113              5/50              0
         County
         Moss Point        771            24/50          14            10/14                 0
         Pascagoula        779             0/50          92             0/47                 0
         Jackson           812             4/50          49             5/26                 3
         Public
         Harrison          969             1/50          99             2/50                 0
         Biloxi          656                1/50         40             1/20                 0
             Totals Errors                 30                           23                   3

                                          Table 2: Quarter 2 Results
                               Non-SWD                                   SWD
                                     Errors/                           Errors/        (Of Total Errors)
                                     Sample                            Sample         Errors due to
         LEAs             Population Size               Population     Size              SWD
                                                                                     Documentation
         Jackson          1236              2/50        122              2/50              0
         County
         Moss Point        860             19/50        162            11/50                 0
         Pascagoula        516              0/50         98              3/50                2
         Jackson           782              2/50         62              7/31                3
         Public
         Harrison         1226              1/50        147              2/50                1
         Biloxi          714                1/50         52             2/26                 0
             Totals Errors                 25                           27                   6




1
 The numbers in the population columns represent the actual number of displaced student names that each of the six
LEAs provided to the audit team. However, the populations were decreased by the number of duplicate students for
projection purposes because we question actual EIA funds related to duplicate students in the following section.
Final Report
ED-OIG/A04G0012                                                                                         Page 6 of 15

                                           Table 3: Quarter 3 Results
                                Non-SWD                                      SWD
                                      Errors/                             Errors/         (Of Total Errors)
                                      Sample                              Sample         Errors due to
         LEAs             Population  Size               Population       Size              SWD
                                                                                        Documentation
         Jackson          1336               7/50        127               2/50               0
         County
         Moss Point       1005              24/50        161              17/50                  0
         Pascagoula        584               0/50        112               0/50                  0
         Jackson           705               0/50         33               2/32                  1
         Public
         Harrison         1405               0/50        200               1/50                  0
         Biloxi         830                 2/50          68               1/34                  0
             Totals Errors                  33                            23                     1

The total questionable EIA funding is $253,8752 related to the actual errors that we found in the
samples. After projecting the errors to the universe of displaced students, we project that MDE
received $2,723,2703 in EIA funding for ineligible displaced students. The projection is limited to
the first three quarters of the 2005-2006 school year, and to the six LEAs reviewed. The sampling
results of each LEA contributed to the total, projected ineligible EIA funding as follows: Jackson
County - $394,580; Moss Point - $1,957,130; Pascagoula - $5,150; Harrison County - $87,390;
Jackson Public - $173,120; and Biloxi Public - $105,900.

Displaced Students Counted Twice in Same Quarter

We found that five of the LEAs reviewed double-counted some displaced students. We reviewed
student lists4 supporting the final displaced student counts that the six selected LEAs reported to
MDE for all four quarters of 2005-2006. We identified students who were counted twice in the
same quarter by the same LEA, and students counted by two different LEAs for the same quarter.
For all four quarters combined, one LEA double-counted 30 students, another LEA double-counted
12 students, and three other LEAs double-counted three students. In addition, we found that 21
students were counted by two different LEAs for the same quarter. The results are shown in Table
4 by the error identified, and by LEA with the exception of the last category of errors with students
counted by two different LEAs.




2
  We calculated the total based on the errors identified in the three tables – $1,500 x 88 Non-SWD in error, plus $1,875

x 73 SWD in error, less $1,500 x 10 SWD whose error is due to inadequate SWD documentation (the subtraction is

because we are only questioning the difference of $375 between the SWD and Non-SWD funding level for the 10 

students included in the 73 SWD number).

3
  We are 95% confident that the ineligible funding MDE received totaled $2,723,270 +/- $416,880. 

4
  Student lists were as of August 2006. 

Final Report
ED-OIG/A04G0012                                                                             Page 7 of 15

                         Table 4: Double Counting of Displaced Students
                         Quarter 1        Quarter 2          Quarter 3                     Quarter 4
 Non-SWD
 Counted Twice                  3                      3                    3                    5
 by Same School
                         (Harrison Co.)          (Harrison Co.)       (Harrison Co.)     (Harrison Co. = 3
                                                                                          Jackson Co. = 1
                                                                                          Pascagoula = 1)
 Same Student
 Counted as                     3                      1                   28
 Both SWD and                                                                                    0
 Non-SWD                (Pascagoula = 2           (Pascagoula)        (Jackson Pub.)
                       Jackson Pub. = 1)

 Same Student                   4                      1                    1                    0
 Counted by
 Two Different         (Jackson Co.= 1 SWD     (Biloxi – Non-SWD)   (Biloxi – Non-SWD)
                          and 1 Non-SWD;
 Schools in Same      Jackson Pub. = 1 SWD;
 LEA                    Biloxi Pub. = 1 Non-
                                SWD)
 Student
 Counted by                     6                      5                    7                    3
 Two Different
 LEAs                (2 SWD; 4 Non-SWD)        (1 SWD; 4 Non-SWD)   (2 SWD; 5 Non-SWD)   (1 SWD; 2 Non-SWD)



Based on the Department’s allowance for each SWD of $1,875 and for each Non-SWD of $1,500,
the total questionable EIA funding is $124,500 –
•   Harrison County - $18,000 (12 Non-SWD x $1,500)
•   Jackson County - $4,875 (2 Non-SWD x $1,500 and 1 SWD x $1,875)
•   Jackson Public - $56,250 (30 SWD x $1,875)
•   Pascagoula - $7,125 (1 Non-SWD x $1,500 and 3 SWD x $1,875)
•   Biloxi - $4,500 (3 Non-SWD x $1,500)
•   MDE - $33,750 (15 Non-SWD x $1,500 and 6 SWD x $1,875)

For the duplicate reporting that occurred across LEAs, the questioned cost is at the state level
because MDE needs to determine which LEA incorrectly reported the student on the applicable
count date and, therefore, should return the funds.

LEAs’ Displaced Student Counts Not Completely Supported

We asked each of the six LEAs to provide a list of the displaced students comprising the counts it
submitted to MDE for the first three quarters of the 2005-2006 school year. The six LEAs provided
us with the lists of student names in support of the displaced student counts reported to MDE.
Final Report
ED-OIG/A04G0012                                                                                     Page 8 of 15

However, the number of students on these lists did not match the numbers reported to MDE. To
provide the LEAs time to correct the counts before evaluating them, we delayed our review until
after the final counts were due and final revisions made. Even with this additional time, the revised
number of displaced students, which was current as of August 2006, was less than the final counts
reported to MDE for all six LEAs. The lists of student names that each of the LEAs provided in
support of their displaced student counts were different from the counts provided to MDE for both
the initial and the final counts.

As detailed in Table 5, the lists of student names that each of the LEAs provided in support of their
initial displaced student counts for quarters one through three, were different from the counts
provided to MDE by 2 to 171 student names for five of the LEAs, and matched exactly for the sixth
LEA. The lists of student names that each of the six LEAs provided in support of their final
displaced student counts for quarters one through four, were short by 1 to 14 student names for four
LEAs, short by 198 names for one LEA, and matched exactly for the sixth LEA. Because the
additional students on MDE’s list were not in our sample universe, the “phantom” students could
not be reviewed in our samples or included in our projections, resulting in the classification of the
total amount of EIA funding associated with the difference as questionable.

                             Table 5: Comparison of Final Counts Reported
                         Initial Counts for Qtrs. 1 - 3      Final Counts for Qtrs. 1 - 4
                                    Total                                          Total
                                    Student         Total          Total #         Student         Total
                     Total #        Names           Student        Reported        Names           Student
                     Reported       Provided        Names Not      to MDE          Provided        Names Not
                                                             5     (as of August   (as of August            5
     LEAs            to MDE         by LEA          Provided                                       Provided
                                                                   2006)           2006)
     Jackson             4190           4101             95            5690            5525            196
     County
     Moss Point          2994           2973             17            3729            3715             14
     Pascagoula          2170           2187             9             2882            2879             1
     Harrison            4238           4067            171            6006            5992             5
     Jackson             2469           2476             2             3213            3183             10
     Public
     Biloxi              2374           2374              0            3297            3294             0

The total questionable EIA funds relating to unsupportable final displaced student counts for all
four quarters is $344,625 –


5
 The columns labeled “Total Student Names Not Provided” will not necessarily be the difference between the first two
columns. LEAs reported four categories of displaced students – SWD and Non-SWD for both public and non-public
schools. The differences in the counts reported to MDE and the names provided in support of those counts were varied
– LEAs provided more student names than what was reported in their application for some of the categories of students,
but also provided fewer student names for some other categories of students. The differences cannot be offset – for
example, Jackson County had 95 students missing on the 1st and 4th quarter Non-SWD rosters, but had 6 more student
names on the 2nd quarter Non-SWD roster. The number of student names missing from one population and the number
of extra student names provided for another population cannot be offset to come up with a result of 89 student names
missing because a total of 95 students are not accounted for on the 1st and 4th quarter Non-SWD rosters. As such, the
funding provided to Jackson County for those 95 missing students is questionable.
Final Report
ED-OIG/A04G0012                                                                        Page 9 of 15

•	 Jackson County - $297,375 (187 Non-SWD x $1,500 and 9 SWD x $1,875)

•	 Moss Point - $21,000 (14 Non-SWD x $1,500)

•	 Pascagoula - $1,500 (1 Non-SWD x $1,500)

•	 Harrison County - $9,000 (1 Non-SWD x $1,500 and 4 SWD x $1,875)

•	 Jackson Public - $15,750 (8 Non-SWD x $1,500 and 2 SWD x $1,875)

•	 Biloxi Public - $0

MDE and the six LEAs had weak controls over displaced student counts, and MDE initially had no
process for oversight and monitoring to test the reliability of the information received from LEAs.
The following are specific examples of weak controls over the EIA program, which resulted in the
errors identified in our review – students misidentified as displaced; students counted twice in the
same quarter; and unsupportable final displaced student counts.

•	 Before receiving the Department’s definition, MDE provided a definition of displaced student.
   MDE’s definition included students displaced from their homes, while the Department’s
   definition only included students displaced from their original school setting. As indicated by
   the high error rates shown in the tables for Moss Point, it used MDE’s definition and the
   Department’s to identify displaced students in its quarters one through three counts. Moss Point
   did not go back and revise its counts even though we notified officials of the error. Pascagoula
   also used the MDE definition; however, prior to our sample review, it revised the list of students
   to adjust for the Department’s definition. In addition, both Jackson County and Harrison
   County officials mentioned that they had initially used the wrong definition of displaced, but
   adjusted their counts to the correct definition.

•	 LEAs did not review the supporting documentation maintained at individual schools for the
   displaced students as part of their monitoring. Pascagoula was the only LEA that required
   schools to send in documentation supporting students’ displaced status. It compared this
   documentation to the data in the Mississippi Student Information System (MSIS) on a sample
   basis. The other five LEAs did not review supporting documentation; they instead relied solely
   on the data in MSIS as their monitoring tool.

•	 According to Jackson Public district officials, the Student Administrative Manager System
   (SAMS) was used to track displaced students within the district. Individual schools in the
   school district did not keep a physical count of displaced students at their location, and, as such,
   may not have known the actual number of displaced students enrolled.

•	 For the first three quarters, Jackson County district officials only requested individual schools to
   provide displaced student counts. Later, they requested schools to provide the student names to
   support the counts, which identified discrepancies in the counts. Therefore, for the fourth
   quarter, the LEA required that the counts and student names be provided at the same time.
Final Report
ED-OIG/A04G0012                                                                      Page 10 of 15

In addition, LEA officials attributed some of the errors identified to data entry errors and confusion
surrounding the actual count dates. Inadequate controls over EIA program implementation and
funding resulted in inaccurate displaced student counts and funding distribution in excess of
entitlements, which could jeopardize both the integrity and the mission of the EIA program. Our
findings indicate that MDE was not prepared for a disaster of this magnitude nor was it prepared to
implement and administer the resulting programs and influx of funds. However, given the
circumstance, MDE reacted as quickly as possible to distribute the EIA funds to LEAs to offset
costs associated with the displaced students. Although MDE had limited control over the initial
displaced student counts, it subsequently developed and implemented a monitoring plan to better
ensure the accuracy of those counts.

All six LEAs reviewed either misidentified displaced students, double-counted students or could not
provide student names to support the final counts. The total projected questionable dollars due to
misidentification of displaced students at the six LEAs reviewed is $2,723,265. The total actual
questionable dollars due to duplicate counts of displaced students is $124,500; and due to
unsupportable final displaced student counts is $344,625.

RECOMMENDATIONS

We recommend that the Assistant Secretary for the Office of Elementary and Secondary Education
require MDE to

1.1	   Provide support or repay the $2,723,270 in projected questionable EIA funds relating to the
       misidentification of displaced students.

1.2	   Provide support or repay the $124,500 in questionable EIA funds relating to the double
       counting of displaced students.

1.3	   Provide support or repay the $344,625 in questionable EIA funds relating to final displaced
       student counts for all four quarters.

1.4	   Review their final lists of displaced students for all four quarters and report necessary
       adjustments to MDE and the Department. Return any ineligible funds identified as a result
       of student count adjustments, if applicable.

MDE Comments

In its comments to the draft report, MDE agrees that the six LEAs reviewed by the audit team
reported inaccurate displaced student counts to MDE, and that MDE reported these inaccurate
counts to the Department. However, MDE’s response stated that it does not agree with using a
projection method to question EIA funds relating to misidentification of displaced students, and
asks that we reconsider our use of the projection method based on the following.

•	 Four of the six LEAs (Harrison, Biloxi, Jackson Public, and Pascagoula) have already adjusted
   their displaced student counts to account for 1) the misidentified students noted in the report for
Final Report
ED-OIG/A04G0012                                                                       Page 11 of 15

   which additional supporting documentation could not be provided, 2) the double-counting of
   displaced students, and 3) the unsupportable final displaced student counts. According to MDE,
   the four LEAs had never drawn down their entire EIA award in the Department’s Grant
   Administration and Payment System (GAPS), and the remaining balances cover either all or
   some of the questionable EIA funds relating to actual errors identified in the audit report. The
   program has been closed-out in GAPS (meaning the funds are going back to the Department);
   therefore neither MDE nor the four LEAs have control or access to the funds.

•	 The remaining two LEAs (Jackson County and Moss Point) performed a 100% review of their
   displaced student counts/student lists for all four quarters, just prior to January 2007. They
   submitted checks to MDE (Jackson County - $344,318 and Moss Point - $1,753,635) to return
   the funds related to the errors identified. The two LEAs adjusted the final displaced student
   counts. MDE added that independent auditors audited the corrected student counts and
   provided assurance that the final displaced student counts are accurate.

MDE stated that it is in the process of implementing the recommendation that the LEAs review
their final lists of displaced students for all four quarters and report necessary adjustments to the
Department, along with applicable ineligible funds. MDE has requested and received final
displaced student counts and student lists for all six LEAs reviewed and will return ineligible funds
identified after finalizing the adjustments related to the final counts.

MDE stated that it has worked with the Department’s Program Office, OIG, LEAs, and auditors to
ensure the integrity of the EIA program. MDE added that it has made all corrections noted by OIG
auditors, has monitored recipients of EIA funds, and is currently resolving all necessary corrective
actions.

OIG Comments

MDE’s response did not require changes to the report findings and recommendations because MDE
concurred with the finding and the recommendations, but did not concur with the return of EIA
funds based on a projection method. Although MDE agreed with the recommendation to develop a
statewide plan for oversight and monitoring of new programs, we deleted the recommendation
based on comments from the Department. In addition, we recalculated the displaced student count
error projections to ensure errors were not duplicated in the finding.

In response to Recommendation 1.1, requiring support or repayment of the projected questionable
EIA funds relating to the misidentification of displaced students, MDE’s corrective action at Jackson
County and Moss Point is sufficient to partially address the recommendation when MDE remits the
returned funds from these LEAs to the Department. If MDE addresses the remaining balance in the
recommendation at the remaining four LEAs reviewed in the same manner – conducting a 100
percent review of their displaced student counts/student lists for all four quarters, returning EIA funds
relating to the corrections made as a result of the review, and completing an independent audit of the
corrected displaced student counts – it will have fully addressed the recommendation.
Final Report
ED-OIG/A04G0012                                                                                   Page 12 of 15



                      OBJECTIVES, SCOPE, AND METHODOLOGY 



The objectives of our audit were to determine if (1) the MDE and six selected LEAs established
adequate systems of internal control to provide accurate displaced student count data; (2) MDE
established an adequate system of internal control to make accurate allocations of EIA funds; and
(3) LEAs used EIA funds only for expenditures within the cost categories allowed by the terms of
the grant and applicable laws and regulations. In addition, we evaluated MDE’s systems of control
over the administration of the Assistance for Homeless Youth Program. Our audit covered the
2005-2006 school year for both EIA and Homeless Youth programs.

We reviewed MDE and six of its LEAs. Our review covered the administration of the EIA Program
and the Assistance for Homeless Youth Program for the award period September 1, 2005 through
September 30, 2006. The six LEAs selected for review were Jackson County, Moss Point,
Pascagoula, Harrison, Jackson Public, and Biloxi Public. We selected these LEAs because,
according to our initial review of displaced student counts for quarters one through three combined,
they had the highest displaced student counts, comprising 41 percent of Mississippi’s initial total
number of displaced students.

To determine the policies, procedures, and controls over MDE’s and the LEAs’ administration of
the EIA Program, we obtained and reviewed laws, regulations, policies, and procedures; the
methodology for allocating the funding; EIA guidance and clarification from Department staff; and
MDE’s monitoring plan. We also interviewed staff and officials at MDE and the six selected LEAs.
We recalculated MDE’s allocation spreadsheets for each of the four quarters to verify the accuracy
of the EIA funding distribution.

To determine whether there was adequate documentation supporting the students’ displaced and/or
SWD status, we pulled two statistical random samples of displaced students for each of the first
three quarters of the 2005-2006 school year (samples included both public and non-public school
students) for each of the six selected LEAs. For the three quarters, the six selected LEAs provided
the audit team with a universe of 18,0916 displaced students, which accounted for $27,793,125 in
EIA funding received by MDE. To test MDE’s compliance with EIA funding regulations, we
selected a random sample of 1,630 students totaling $2,718,750 in EIA funding from the universe of
displaced students at the six LEAs. We obtained and reviewed documentation supporting the
students’ displaced and SWD status. Tables 1 through 3 display the populations, sample sizes, and
errors. The sample results were projected to the populations of student names provided by the
LEAs to determine the group total projected questionable dollars for the misidentification of
displaced students. We provided individual LEA information to demonstrate the impact the
sampling results of each LEA had on our total estimated amount for the six LEAs combined. At the
group level, the precision was sufficient to conclude that MDE received total ineligible funding of


6
  The actual number of student names that the six LEAs provided to the audit team was 18,178; however, for projection
purposes, we decreased the universe by the number of duplicate students discovered. We questioned actual EIA funds
related to the duplicate students discovered.
Final Report
ED-OIG/A04G0012                                                                      Page 13 of 15

about $2,723,270 at the 95 percent confidence level. The precision percent associated with this
projection is plus or minus 15.31 percent or $416,880.

To evaluate the accuracy of MDE’s counts submitted to the Department, we obtained the
spreadsheets supporting MDE’s first displaced student count application and traced the totals from
the spreadsheet to the totals reported in the application MDE submitted. We also traced a
judgmental sample of 10 LEAs’ (top 10 LEAs with highest number of displaced students)
application counts to the counts recorded on the spreadsheet to determine whether the counts on the
LEAs’ applications matched those recorded on the spreadsheet. We were unable to obtain the
spreadsheets supporting MDE’s second through fourth application submissions because MDE did
not maintain spreadsheets supporting those student counts. MDE did not retain a copy of the
supporting spreadsheets after each student count submission to ED, but rather updated the original
spreadsheet with each revised count from the LEAs. Without the audit trail for the prior counts, we
relied on our validation of MDE’s final submission of displaced student counts. The spreadsheet
supported MDE’s revised counts for all four quarters; therefore, the issue that prior spreadsheets did
not support the counts submitted to the Department became immaterial to the audit.

To determine whether the LEAs charged expenditures only to the cost categories allowed by the
terms of the grant and applicable laws and regulations, we obtained and reviewed a listing of
recorded EIA expenditures and EIA drawdown information (as of September 2006), for each of the
six selected LEAs. We looked at the cost categories to which the EIA funds were charged to ensure
that the categories used were those allowed by the terms of the grant. We did not test individual
transactions to ensure that the expenses charged to the cost categories were accurately or
appropriately recorded. Since MDE used the majority of both Restart and EIA program funding on
payroll, we obtained a summary of five of the six selected LEAs’ Restart funding and expenditure
information (one of the six LEAs did not participate in the Restart program), including the payroll
information for the 2005-2006 award year. We compared the LEAs’ total funding/drawdowns for
both the EIA and Restart programs to the total payroll for the year to ensure that the LEAs’ payroll
expense exceeded the combined funding from both programs.

For each LEA site visit, we obtained and reviewed student counts and student lists for all four
quarters of 2005-2006, and compared the lists of student names provided in support to the student
counts submitted to MDE. We also used the final lists of student names to determine whether there
were any duplicate students reported within a particular LEA or across the six selected LEAs in the
same quarter. We compared the students’ names, social security numbers, MSIS identification
numbers and birthdates to identify duplicate students.

To evaluate MDE’s controls over the administration of the Assistance for Homeless Youth
program, we obtained and reviewed applications of the 14 LEAs that applied for program funds.
We also traced pertinent information from those applications to the allocation spreadsheet to
determine whether the allocation methodology was valid and the distribution accurate. We also
interviewed the MDE personnel/contractor responsible for the administration of the Homeless
Youth Program, and gathered and reviewed policies and procedures, to identify the controls over
administering the program and allocating the funds, and to evaluate MDE’s procedures for
monitoring the participating LEAs.
Final Report
ED-OIG/A04G0012                                                                       Page 14 of 15

During the audit, we relied on student information in the Software Technology, Inc. (STI) system
and MSIS for the sample of displaced students attending school in Jackson County and Moss Point,
with permanent records having been destroyed by the hurricane. Jackson County uses STI as their
local student information system and Moss Point used SAMS as their local student information
system. Both LEAs periodically upload the student information to MSIS, which is the statewide
student information system. To test the reliability of the electronic student databases, we compared
the student information in STI and SAMS to the information in MSIS for the applicable sampled
students to make sure the information matched. Specifically, we verified student names, MSIS
identification numbers, enrollment and withdrawal dates, and grade level. Based on the results of
our data reliability tests, we determined that the information in STI, SAMS, and MSIS was
sufficiently reliable to use in meeting our audit objectives.

We performed on-site audit work during various weeks throughout February 2006 to August 2006.
We visited MDE in Jackson, MS, and the selected LEAs – Jackson County School District in
Vancleave, Moss Point School District in Moss Point, Pascagoula School District in Pascagoula,
Harrison County School District in Gulfport, Jackson Public School District in Jackson, and Biloxi
Public School District in Biloxi. An exit conference was held with MDE officials on November 30,
2006. The audit was performed in accordance with generally accepted government auditing
standards appropriate to the scope of the review described above.



                              ADMINISTRATIVE MATTERS



Statements that managerial practices need improvements, as well as other conclusions and
recommendations in this report, represent opinions of the Office of Inspector General.
Determinations of corrective action to be taken will be made by the appropriate Department of
Education officials.

If you have any additional comments or information that you believe may have a bearing on the
resolution of this audit, you should send them directly to the following Education Department
official, who will consider them before taking final Departmental action on this audit:

                              Kerri L. Briggs
                              Assistant Secretary
                              Office of Elementary and Secondary Education
                              U.S. Department of Education
                              400 Maryland Ave., SW
                              Room 3W323
                              Washington, D.C. 20202

It is the policy of the U.S. Department of Education to expedite the resolution of audits by initiating
timely action on the findings and recommendations contained therein. Therefore, receipt of your
comments within 30 days would be appreciated.
Final Report
ED-OIG/A04G0012                                                                    Page 15 of 15

In accordance with the Freedom of Information Act (5 U.S.C. § 552), reports issued by the Office of
Inspector General are available to members of the press and general public to the extent information
contained therein is not subject to exemptions in the Act.

                                                    Sincerely,

                                                    /s/

                                                    Denise M. Wempe
                                                    Regional Inspector General for Audit

Attachment
            Mississippi Department of Education
            Hank M. Bounds, Ph.D., State Superintendent of Education
            Beth H. Sewell, Ed.D., Executive to the State Superintendent

            Office of Innovation and School Improvement
            Sonya M. Amis y Associate State Superintendent y 601-359-3768   y    FAX: 601-359-3712




March 21, 2007

                                                                                     Control Number
                                                                                     ED-OIG/A04G0012

Ms. Denise M. Wempe
Regional Inspector General for Audit
U.S. Department of Education
Office of Inspector General
61 Forsyth Street, Room 18T71
Atlanta, GA 30303

Dear Ms. Wempe:

In response to your February 9, 2007, Draft Audit Report, entitled Audit of Mississippi Department of
Education’s (MDE) Emergency Impact Aid (EIA) Program Controls and Compliance, we submit the
following response.

Although we do not agree with using a projection method, we acknowledge that inaccurate displaced
student counts were reported to MDE from the six LEAs you reviewed (Biloxi, Harrison Co., Jackson
Public, Jackson Co., Moss Point, & Pascagoula). Based on the numbers reported to MDE, we reported
the numbers we received from the LEAs to the United States Department of Education to meet their
established timeframes. Your review of the six LEAs and our monitoring of the other recipients did
identify errors with reported displaced student counts. When analyzing the results of the displaced
student counts noted in the monitoring reports collectively, we found that overall the LEAs in the state
of Mississippi cautiously underclaimed the number of displaced students they actually served.

Your initial report indicated that all six LEAs reviewed either misidentified displaced students, double-
counted students or could not provide student names to support the final counts. The total projected
questionable dollars due to misidentification of displaced students at the six LEAs reviewed is
$2,786,400. The total actual questionable dollars due to duplicate counts of displaced students is
$124,500; and due to unsupportable final displaced student counts is $429,750.

In response, the LEAs have provided additional support and have adjusted their displaced student
counts when support was not available. Some LEAs have already submitted payment for unsupported
final displaced student counts and MDE will collect any additional overpayments once we have
completed the validation of all final counts compared to the name lists and supporting documentation.

                                          “Quality Education for Every Child”
       Central High School Building   y   359 North West Street y P.O. Box 771   y   Jackson, MS 39205-0771
Your Draft Report Noted the Following Recommendations:

1.1 Provide support or repay the $2,786,400 in projected questionable EIA funds relating to the
misidentification of displaced students.

Response: The Mississippi Department of Education (MDE) has contacted each of the LEAs for the
necessary support. In addition, in those cases where support was not available, we have requested
repayment of EIA funds relating to the misidentification of displaced students. MDE currently has
received supporting documentation from some of the LEAs as it relates to the findings noted. In cases
where the support was not available, the LEAs have submitted payment to MDE to cover questioned
EIA funding. See details of repayments in Attachment 1.

Again, MDE requests that OIG reconsider the use of the projection method. The LEAs have adjusted
their numbers for the errors noted for the misidentification of displaced students and provided funding
to cover the actual errors noted. If the projections are used to calculate questionable costs, we request
an opportunity to evaluate this process. Please provide the details of how the projections were
calculated.

1.2 Provide support or repay the $124,500 in questionable EIA funds relating to the double
counting of displaced students.

Response: The Mississippi Department of Education has contacted each of the LEAs for the
necessary support. In addition, in those cases where support was not available, we have requested
repayment of EIA funds relating to the double counting of displaced students. The Mississippi
Department of Education has received adjusted counts for the LEAs and recovered EIA funds from the
LEAs to cover the students that were double counted. In addition, the adjusted student counts and
repayment of questioned EIA funding associated with the double counting corrects this
recommendation.

1.3 Provide support or repay the $429,750 in questionable EIA funds relating to final displaced
student counts for all four quarters.

Response: The Mississippi Department of Education has contacted each of the LEAs for the
necessary support. In addition, in those cases where support was not available, we have requested
repayment of EIA funds relating to final displaced student counts for all four quarters. This is the most
accurate method of determining any overclaims. MDE is reviewing final displaced student counts for
these six LEAs and comparing our numbers to the displaced names lists to ensure accuracy in the final
reported numbers. We will make all necessary adjustments to these counts and request any additional
EIA repayments. See details of repayments in Attachment 1.

1.4 Review their final lists of displaced students for all four quarters and report necessary
adjustments to MDE and the Department. Return any ineligible funds identified as a result of
student count adjustments, if applicable.
Response: As detail in our response to Recommendation 1.3, the Mississippi Department of
Education has contacted the six LEAs for the necessary support. In those cases where support was not
available, we have requested repayment of EIA funds relating to final displaced student counts for all
four quarters. We have requested and received the Final Lists of Displaced Students for all four
quarters and will report necessary adjustments to the USDOE along with the return of ineligible funds
identified as a result of the student count adjustments. MDE will make payment to USDOE once we
finalize all adjustments to the displaced student counts. This is inclusive of the adjustments necessary
as a result of MDE’s monitoring efforts. See details of repayments in Attachment 1.

1.5 Develop a Statewide plan for oversight and monitoring of new programs, including a
program initiated to address an unexpected event, such as a disaster. The plan should include a
process for administering the associated funding, and disseminating guidance to the LEAs to
assist in implementing the program and ensuring the accuracy of data.

Response: MDE will develop a statewide plan for oversight and monitoring of new programs,
including a program to address unexpected events, such as disasters. We have established processes
for administering the associated funding and disseminating guidance to the LEAs. Although we agree
with your statement that MDE was not prepared for a disaster of this magnitude, nor was our country
as a whole, we take exception to the statement that we were not prepared to implement and administer
the resulting programs and influx of funds. A statement of this nature cuts at the very fiber of the work
and effort of employees who expedited the program funding and initiatives amidst all of the
uncertainty and federal regulatory changes that occurred at the inception of this program and
throughout the year. MDE has worked profusely with the Program Office, OIG, LEAs and auditors to
ensure the integrity of the Emergency Impact Aid Program. Unlike normal operating procedures when
audits are conducted at year end or after the closeout of a grant, consider that your audit was conducted
during the current program year before all necessary corrections and adjustments could be made.
Subsequently, MDE has made all corrections noted by OIG auditors and has monitored recipients of
EIA funds and is currently resolving all necessary corrective action.

We trust that you will consider the actions we have taken to correct the displaced student counts as an
acceptable alternative to using the projection method identified in 1.1. We have set a target date of
May 31, 2007 to finalize all corrective action for the Emergency Impact Aid Program. Any excess
funding will be returned the U. S. Department of Education at that time. If you have any questions, or
if any additional information is needed, please contact us at (601) 359-1972.

Sincerely,

/s/

Sonya Amis, Associate State Superintendent
Mississippi Department of Education
Attachments
c: 	   Hank M. Bounds, State Superintendent of Education
       Beth H. Sewell, Executive to the State Superintendent, MDE
       Selina Boyd, Financial Analyst, USDOE-OIG
       James A. Hart, School Finance Officer, MDE
